U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

September 2, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Kaboni Savage v. United States, No. 20-1389
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 29,
2021. The government’s response is now due, after four extensions, on September 7, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including October 7, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

20-1389
SAVAGE, KABONI (CAPITAL CASE)
USA

MADELINE S. COHEN
1942 BROADWAY
SUITE 314
BOULDER, CO 80302
303-402-6933
MADELINE@MADLEINECOHENLAW.COM
303-648-4330(Fax)
BARRY J. FISHER
PUBLIC DEFENDERS OFFICE
39 NORTH PEARL STREET
5TH FLOOR
ALBANY , NY 12207
518 650-9031
BARRY_FISHER@FD.ORG
518 436-1780(Fax)
GRACE E. LEEPER
O'MELVENY & MYERS LLP
1625 EYE STREET, N.W.
WASHINGTON, DC 20006
202-383-5300
LAWRENCE S. LUSTBERG
GIBBONS P.C.
ONE GATEWAY CENTER
NEWARK, NJ 07102
973-596-4731
LLUSTBERG@GIBBONSLAW.COM

JONATHAN PODOLSKY SCHNELLER
O'MELVENY & MYERS LLP
400 S. HOPE ST.
18TH FLOOR
LOS ANGELES, CA 90071
213-430-8115
JSCHNELLER@OMM.COM

